BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amicus Curiae Thomas P. Vartanian in Support of
Petitioners in No. 19-422 and Respondents in No.
19-563, Patrick J. Collins, et al. v. Steven T. Mnuchin,
Secretary of the Treasury, et al. and Steven T.
Mnuchin, Secretary of the Treasury, et al. v. Patrick J.
Collins, et al., were sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 23rd day of September, 2020:
Charles Justin Cooper
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
ccooper@cooperkirk.com
Counsel for Patrick J. Collins, et al.
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Steven T. Mnuchin, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Aaron Lloyd Nielson
J. Reuben Clark Law School
Brigham Young University
516 JRCB
Provo, UT 84602
(801) 422-2669
nielsona@law.byu.edu

Counsel for Court-Appointed Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 23, 2020.

Donna J. Wolf U
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affi.ant on the date below designated.
Date:

~~ J-3 1 dVd'D
~

io- ~

Notary Public
[seal]

